No. 20-7816

IN THE
SUPREME COURT OF THE UNITED STATES

Afolabi Pro se - PETITIONER(S)
vs.
Warden - RESPONDANT(S)

CERTIFICATE OF SERVICE

I, Lassissi Afolabi, Federal inmate currently incarcerated in North Lake Correctional
Facility, hereby certify that on July 2, 2021, a copy for PETITON FOR REHEARING was served
on Appellee by First-Class Mail, and the grounds are limited to intervening circumstances of
substantial or controlling effect or to other substantial grounds not previously presented, and it is
presented in good faith and for delay, and it has been mailed to the Appellee via official Inmate
Legal Mail system of NLCF, Baldwin, MI, to the following address:

Susan Millenky, Esq
OFFICE OF UNITED STATES ATTORNEY
970 Broad Street
Room 700
Newark, NJ 07102

Date: July 2, 2021

Respectfully Submitted
rj

LasJmisf Afolabi
R/g./lo. 28877-050

